No. 20-8137

Supreme Court, U.S.
FILED

IN THE

JUL 1 2 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

WASHINGTON DC 20543

MARILYNN M. MCRAE - PETITIONER
vs.

DONNIE HARRISON. Sheriff- RESPONDENT(S)

PETITION FOR REHEARING
ON THE WRIT OF CERTIORARI

SUPREME COURT OF THE UNITED STATES
PETITION FOR REHEARING

Marilynn M. McRae
4233 Birmingham Way
Raleigh, NC 27604
(919-225-8290)

RECEIVED
jUL ? 9 202'

l

**

tf*. - n -P37

Pursuant to rule 44 of this court, the petitioner Marilynn M. McRae hereby,
respectfully petitions for rehearing of this case by a preponderance of factual
evidence that contradicts the trial court and appeals court judge’s decisions in favor
of respondent, Donnie Harrison, Sheriff.
The evidence will show Unfairness and violations of defendant’s attorney,
Jennifer Jones and associates toward the plaintiff/appellant, Marilynn McRae and
as a result caused her harm and the dismissals of her case.
The listed rules and regulations of the North Carolina State Bar is associated with
this case regarding the unethical behavior of defendant’s attorney Jennifer Jones,
and associates.
Rule 3.4 (a)(b)(c)(d) Fairness To Opposing Party, Rule 3.5(l0)(ll)
Impartiality and decorum of the Tribunal, Rule 4.1 Truthfulness in statements to
others, Misrepresentation (l) Statement of Fact, (2), Crime or Fraud by Client (3)
Under Rule 1.2(d), Rule 4.4 Respect for rights of third persons (Comment (2)). Rule
3.2 Expediting Litigation (Comment (l), ethics opinion notes CPR321) It is improper
for an attorney to file motions and pleadings for the mere purpose of delay. Rule 3.3
Candor Toward The Tribunal, (a)(l)(3), (b)(d), (Comment (2)). Representations by a
lawyer, (3), Rule 1.2(d), Legal Argument (4), Offering Evidence (5) paragraph (a)(3),
(6), (8), and see Rule 1.0(g), (9) paragraph (a)(3), (ll) and see Rulel.2(d), (12),
Duration of Obligation (14).

2

a/<>.

0.0- %i3*l

STATEMENT OF FACTS
1. On September 23, 2019, Case 5:l7cv-00023-HKS (DE 83) page 1 of 20; the
Honorable Judge Malcolm J. Howard, Senior United States District Judge
filed an Order on the defendant’s motion to dismiss, (44). Plaintiff
proceeding pro se responded, DE 48. Pages 11- 20.
a. Wrongful Discharge under the ADA —Denied
b. Failure to Make a Reasonable Accommodation -Denied
c. Retaliation —Denied
d. Harassment / Hostile Work Environment -Denied
e. Intentional Infliction of Emotional Distress —Granted

f. Family Medical Leave Act (FMLA) Violations -Denied
2. On January 28, 2020, (DE 90) ORDER pages 127 contradicted his ORDER
(DE 83), and all the orders dismissing the defendant’s motions to dismiss.
On this date Judge Howard granted Summary Judgment in favor of
Sheriff, Donnie Harrison.
Appellants factual documents were not acknowledged in ORDER DE 90
referencing all of the attorney’s entries in respondents Memorandum in
Support For Summary Judgment.
The District Court were given the originals of the factual documents,
and copies given to sheriff Harrison’s attorneys.

4

iJo. XQ-VISf?

Plaintiff filed a letter to Judge Howard notifying him on January 1, 2019, DE
57, pages 1-14 of the unethical practices of attorney Jones toward the
plaintiff. Plaintiff asked Judge Malcolm to take her of the case or hoping
that he would intervene to stop Sheriff Harrisons attorney Jennifer Jones.
Nothing was done and attorney Jones continued to delay the case and
continued to mislead the tribunal by leaving out the truth and factual
documents she has in her possession. (Ex. A Letter to
Judge Malcolm Howard attached).
3. Attorney Jones Memorandum In Support Of Motion For Summary
Judgment, DE 66 Filed April 15, 2019, pages 1 of 32.
a. Attorney Jones states on page 5 no. 1. That plaintiffs claims under the
ADA should be dismissed because the forecast of evidence fails to
establish that there is a genuine issue of material facts. Attorney Jones
states in the second paragraph that, “Plaintiff was not able to perform the
essential functions of a detention officer, and thus as a matter of law,
Defendant is entitled to summary judgment on all ADA claims.

Attorney Jones had in her procession the job assignments that the plaintiff was
assigned to and working at the sheriff department that included the dorms, laundry
control stations, and general duty.

Plaintiff was performing the essential functions

of a detention officer until she was made by her supervisors to go on nightshift on a
twelve- hour shift and work in the control stations only. The detention

5

<0o. -2.0-1139
Administrators made a new light duty policy for the detention staff only, everyone in
detention except the Administrators had to abide by the new policy.

b.

The new policy was implemented on August 1,2013 for detention staff only. The
policy was discriminatory and as a result EEOC through the charges that plaintiff
filed made the sheriff department change the policy where everyone that worked in
the sheriff department. The policy was discriminatory that separated a class of
people. Attorney Jones mislead everyone by saying in her reports that plaintiff was
put on night shift because of her working eight- hours, and fail to say in any report
that plaintiff was made to go on nightshift per the implementation of the new light
duty policy, and work in the control station only.

c.

Attorney Jones had Director Butler falsify an affidavit and he didn't tell the truth.
Both parties knew that plaintiff was working in other areas of the jail and with
inmates. Nightshift shuts down at 12.00 am and all the inmates are locked down in
the room if they have a room. The officer working the floor would come in and
relieve me after my eight-hour shift was complete. There were no other officers
needed on the floor and no one had to do extra work. If Director Butler and Director
Higdon had given plaintiff a lunch break, her time would have been extended on the
job to work an additional 45 minutes. Director Higdon refused to change her hours
of work they gave her when she went on nightshift that was from 6:45 pm to 2:45
am., which didn't include a lunch break or a regular break that everyone has the

6

HJo. SlO - §139
pleasure of enjoying at the detention centers. The appellant was the only employee
at the Wake County Sheriff Office that was not allowed a regular schedule whether
or not on an eight-hour shift or a twelve-hour shift.

2. Respondent through his attorney stated in part 1. pg. 5 of the memorandum of
the summary judgment that- Plaintiff‘s claims under the ADA should be dismissed
because the forecast of evidence fails to establish that there is a genuine issue of
material fact.
(a) Fact by appellant and record on multiple documents in the CMF
that appellant work at other locations in the jail with inmates, until the
light duty policy was implemented, and appellant was mandatoried to
work in a control station, per discriminatory light duty policy, which
EEOC made them change to include all WCSO employees. The lawsuit
the appellant implemented and wasn’t allowed the benefit of using.
The new fight duty policy is in her federal FOIA file.
Respondent pg. 5 - 8- Defendant is Entitled to Summary Judgment on Plaintiffs
Failure to Accommodate Claim.
FACT: Under this claim the attorney admits to all the requirements under
the ADA that qualifies the appellant, other than that the appellant fails under the
third and fourth element that of a failure to perform the essential functions of her
job, with or without accommodations. Respondent details classification 7036 job
description. Appellant was working in multiple areas of the job and with inmates,
and only had to work in the control station only per her administrators for being on
fight duty status. Which caused the appellant to only be able to do that job. The

7

A/o.

-2J>~ <$131

respondent attorney failed to mention that I was only working the control station
because I needed and had to keep my job, per the new light duty policy for detention
officers, and regular supervisors other than the administrators. Nor did or do she
mention that I asked for a modified schedule of working a full eight-hour forty
hour week and was denied and harassed. The attorney use information as factual
and leave out pertinent information that she know to he true,
which mislead anyone if they don’t read the full case and see that the documents
are legitimate and was recorded or received from the sheriff s office computer,
emails, or letters sent to her. At no time did the appellant believe that the control
station was a permanent position because she was working in other areas of the
jail.

Respondent- No. 1 pages (9-10) The Control Booth Job was Not a Permanent
Position, and Employer is Not Required to Create a Permanent Position.

Appellant Fact- Appellant was only continually working in the control booth, due to
the implementation of the new fight duty policy, dated August 1, 2013 generated for
everyone on fight duty only. Prior to the detention administering the policy the
appellant was working in other areas of the jail and with inmates. The assignment
documents were given to respondent’s attorney who have them in her possession,
All of the verification documents are recorded in the case files in this case. The
attorney for sheriff Harrison continually leave out pertinent information and
continually state the same information with case files of other cases and continually
repeat certain medical dr. notes and never mention the other dr. notes or return to
work dr. notes and certification from the appellant doctors who said she can return
to her full -time duties and on the 12 hour shift. Attorney Jones always leave out
pertinent information that she have in her procession, and misrepresent the truth.

8

k/o.'

2o-1rf3i7

Respondent DE 66, pg. 12-14- Defendant Was Not Required to Convert a
Temporary Light Duty Position into a Permanent Position as a Reasonable
Accommodation.
Appellant Fact- Attorney Jones misled the facts again. Appellant did say in DE 66
page 13 line 3*8 Question- Did you ever request a reasonable accommodation.
Answer - I answered the control station was an reasonable accommodation. I
informed them. My doctor informed them. What more did they need,
Question- line 7 What did you ask for as your accommodation? Was it to work
permanently in the control station?
Answer- Of course not. It was not- even though we do have permanent control
station workers. We do. Sheriff department do have permanent control station
workers. No I did line 12 - not ask that because I didn’t think my condition was
going to be permanent. It was for the time being, for when I couldn’t work on the
floors or around inmates.
It was never said that the Appellant believed the control station to he a permanent
Position and was working in the control station per orders from the mandatory light
duty policy. Appellant asked for a modified shift for her disability and was given
6545 pm to 2-45 am, with no lunch break of 45 minutes, and a 15 min. break. All
other employees had regular lunch breaks and 2 —15- minute breaks.

Respondent DE 66, pages 14-18- Defendant is Entitled to Summary Judgment on
Plaintiffs Wrongful Termination Claim under the ADA.
In Haulbrook, the Fourth Circuit statedIn an ADA wrongful discharge , a plaintiff establishes a prima facie case if
she or he demonstrates that (l) she or he is within the ADA’S protected class; (2)she
or he was discharged; (3) at the time of his or her discharge she was performing the
job at a level that meth her employers legitimate expectations; and his or her
discharge occurred under circumstances that raise a reasonable inference of
unlawful discrimination.

9

fjo.

2.0- <3rl3n

Haulbrbrook v. Michelin N. Am, 252 F. 3d 696, 702 (4th cir. 2001)

Appellant Fact - Appellant was working in other areas of the detention facility in
dorms, general duty, laundry, control stations, and with inmates. Job assignments
given to the court with dates. Appellant was performing essential duties.
Appellant on February 14, 2014 was home preparing to come on shift and received a
phone call and was told not to report to work if she couldn’t work a twelve-hour
shift. Appellant was on an eight hour a day, schedule and had to stay on the twelve
hour rotation per Assistant Director Higdon which decreased her hours of work by
four hours each day she worked. If she had been allowed to work the modified shift
it would have been a forty- hour shift, modified from her original shift of 168 hours
a month, as requested per her medical physician.
Appellant applied to her short term disability policy and received the additional (4)
four- hours of pay lost. Prior to the disability policy kicking in appellant used her
leave and sick leave pay for the additional hours.
Appellant was in limbo until December 19, 2014 when she was terminated. Prior to
termination Appellant had completed her mandatory training, which consisted of
physical training in inmate takedown, running, and other training and passed the
training and was allowed to keep her certification as an officer. Appellant was
terminated not long afterward. The training was in November of 2014.
Appellant had problems with trying to get the dates for training from
approximately April till receiving the information in November from Captain
Brown. While at training Lt. Oxendine told me that I wasn’t supposed to be there
and I informed her that I was on schedule to be there.

Respondent DE 66 pages 19 -22- Defendant is Entitled to Summary Judgment on
Plaintiffs ADA Retaliation Claim.
Appellant Fact- Under Title of the Americans with Disabilities Act (ADA), a

10

T

fJo. g£>

;i|

reasonable accommodation is a modification or adjustment to a job, the work

—!

envxronmehTorLhe way things are usually done during a Hiring process.
It’s also illegal to harass an employee because he or she has a disability in the past,
!

or is believed to have a physical or mental impairment that is not transitory (lasting

lling

or expected to last six months or less), and minor (even if he or she does not have
such an impairment). Under the ADA, and Equal Employment Opportunity
Commission — Disability Discrimination.
Appellant was told by her superiors that she wasn’t going to work a regular 40hour week schedule when they knew that’s the procedure when employees medical
doctors put them on limited hours from the regular 12- hour shift rotation.
Appellant was on the 40 hour shift in 2008 with the sheriff department. By the
appellant not accepting their bullying by taken rights of enjoyment of being able to
work in a decent environment caused her superiors to strike back harder. As a
result they took her out of work shunned her and then fired her. They tried to
break her spirit. There was not one employee that suffered like the appellant. -

!

What she have endured even with this lawsuit is out of the norm. Appellant never
expected to also be treated unfairly by the respondent’s attorneys.
Appellant satisfied through factual documents that she qualifies under the ADA.

Respondent DE 66 pages 24-27- Defendant is Entitled to Summary Judgment on
Plaintiffs FMLA Claims.

Appellant Fact- The sheriff department violated her FMLA rights by taking away
the need for her to use the leave when she needed it. When appellant was told not
i

to come back to work they used the FMLA leave to cover the harassment of them
calling me at home and telling me just not to come back to work. Appellant didn’t
know that they had put her on FMLA leave. Appellants short term disability policy

i

i

!

11
I

<A

Vy

SUPREME COURT OF THE UNITED STATES
------------- OFFICE OF THE CLERK------------WASHINGTON, DC 20543-0001
July 15, 2021
J^n

6r

>r *-

J

W i+i*f

Marilynn McRae
4233 Birmingham Way
Raleigh, NC 27604

***

RE: McRae v. Harrison
No: 20-8137

4*,nd

iJ, s»d!^r- *nJ '*

T

,

j~

^ a.

/

sui)S+~^c, 6r *

Dear Ms. McRae:

The petition for rehearing in the above-entitled case was postmarked
July 12,2021 and received July 15, 2021 and is herewith returned for
failure to comply with Rule 44 of the Rules of this Court. The petition must
briefly andjiistinctly state its grounds and must be accompanied by a
certificate stating tHatthe grounds areTimitedtomtervening circumstances
of substantial or controlling effect or to other substantial grounds not
~ ‘
” ■■
previously presented.
You must also certify that the petition for rehearing is presented in good
faith and not for delay.
Please correct and resubmit as soon as possible. Unless the petition is
submitted to this Office in corrected form within 15 days of the date of this
letter, the petition will not be filed. Rule 44.6.
'
“‘1-

Sincerely,
Scott S. Harris, Clerk
By:

1

KjdkcirL-1Const

h*. y*‘

-hA

*n

sec-"**

of

j/bof* ^ Jjft i Redmond K. Barnes
M** (202) 479-3022
SO

Enclosures

~3>>

4■B'J’

